                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: 112050029                                                                         Page 1 of 1



                   This file was opened to determine whether there is any evidence of fraud, waste, or abuse
          with respect to grantees, with significant balances in the first quarter of award close-out
          eligibility, improperly spending the remaining funds.

              The issues initially identified as potentially problematic for NSF award
          f o r - award were:

                     1)             was reported as expended in the first quarter after the award expired, and
                     2)              was reported as expended in the second quarter after the award expired.

                 On June 7, 2012, we sent a letter to              requesting financial information for
          this award. We received the requested documents on June 27, 2012.

                 This is a five-year award, with the first
                    four
           v1HU111.111/",             funded by
                                       With the written permission of the NSF PD,       used funds from
                            to purchase equipment during the final month of Year 1 in support of the
          continuing work being funded by . . .

                  After reviewing -    detailed response and supporting documentation, we determined
         that the              were made in accordance with the award and the approval of the NSF PD,
                                 Among the supporting documentation provided to me by •       were
         copies of email correspondence between -             and the PI for the award, which
         - h a d not uploaded into eJacket.

                     This case will be closed with no further action taken.




NSF OIG Form 2 (I 1102)
